relationship ceases for any reason, we may increase your Regular Monthly Periodic Rates and
corresponding Annual Percentage Rates to the higher rates as disclosed in your Summary
of Terms and/or Card Carrier. Such a change would require at least 45 days advance notice
and would not become effective until at least 12 months after the opening of your Account.
When effective we will apply the increased Monthly Periodic Rates and corresponding APRs
to transactions made on or after the effective date of such increase. The employee preferential
Monthly Periodic Rates and corresponding APRs then in effect would continue to apply to
transactions made prior to that date. We may keep the increased Monthly Periodic Rates and
corresponding APRs in effect indefinitely.
Other Charges
In addition to Finance Charges, a variety of fees and charges may be applied to your
Account, as follows:
Late Payment Fee: If your Minimum Payment Due is not credited to your Account on or
before the Payment Due Date, you may be charged a Late Payment Fee of up to $35. However,
the Late Payment Fee will never be greater than the Minimum Payment Due.
Returned Payment Fee: If any payment received in payment of your Account is returned
to us unpaid for any reason, you may be charged a Returned Payment Fee of up to $25.
However, the Returned Payment Fee will never be greater than the Minimum Payment
Due. If we return unpaid any Convenience Check (including any Promotional Check), or
Balance Transfer Check you may be charged a Returned Payment Fee up to $25. However,
the Returned Payment Fee will never be greater than the Amount of the check we return.
Documentation Fee: You may request a copy of a statement previously sent to you for
a Documentation Fee of $5 per statement, which will be added to your Account balance.
Copies of sales tickets or other items posted to your Account, and all other correspondence,
may be obtained for a Documentation Fee of $5 per sales ticket or other posted item, or
item of correspondence, which will be added to your Account balance. Notwithstanding the
foregoing, we will not impose any fee in connection with your good faith assertion of a billing
error or other exercise of your Billing Rights (see below under “Your Billing Rights: Keep
This Document For Future Use”).
Annual Fee: If applicable to your account, an annual fee will apply as shown in the
Summary of Terms. (If an Annual Fee amount is shown as “Introductory” for a specified
period, that Introductory Annual Fee will expire no less than the specified period after the
opening of your Account, and thereafter the Annual Fee will revert to the standard annual fee
amount as shown in the Summary of Terms.)
Expedited Card Fee: If applicable to your Account, an Expedited Card Fee may apply to
your Account for delivering a Credit Card to you via recognized overnight courier, such as
Federal Express, upon your request. The Expedited Card Fee is $25 per card that is expedited.
Annual Summary Statements: If applicable to your Account, if you elect to receive an
Annual Summary Statement, a $15 fee may be charged to your Account.
Lost Cards, Unauthorized Use and Identity Theft
If you notice the loss or theft of your Card or a possible unauthorized use of your Card, you
should write to us immediately at: Security Department, Synovus Card Services, P.O. Box
84050, Columbus, GA 31908-4050, or call us at 1-888-SYNOVUS (796-6887) (or 706-6440012 for calls from outside the U.S.). You will not be liable for any unauthorized use that
occurs after you notify us. You may, however, be liable for unauthorized use that occurs before
11

your notice to us if we reasonably determine, based on substantial evidence, that you were
fraudulent or negligent in the handling of the Account or the Card. In any case, your liability
will not exceed the lesser of $50 or the amount of money, property, labor, or services obtained
by the unauthorized use before notification to us.
If you believe that you have been the victim of identity theft and that there is a transaction(s)
or application(s) you believe is a result of that identify theft, please write to us at: Security
Department, Synovus Card Services, P.O. Box 84050, Columbus, GA 31908-4050. All
submissions regarding an unauthorized transaction(s) or application(s) due to identity theft
must be sent to the foregoing address. If you contact us by phone regarding transactions
resulting from identity theft, we will require you to make a written submission. In your written
submission, please include:
(1) your name,
(2) your account number,
(3) if known, the date of the transaction(s) or application(s),
(4) if known, any other identifying information that you believe may assist us in identifying
the transaction(s) or application(s) that were the result of a stolen identity, and
(5) any federal, state, or local law enforcement agency or officer you would like results of the
investigation to be sent.
Once we receive the request we will respond within the next 30 days, pending any verification
of identity, with any information in our control regarding the application(s) or transaction(s)
that were the result of identity theft to you and anyone else requested in your submission.
We may require that you verify your identity before investigating your claim. If we determine
that identity verification is necessary, we will request from you a copy of a government issued
identification or other documentation that will allow us to verify your identity. Additionally,
we may require that you submit a copy of a police report you filed evidencing the claim of
identity theft, and either the Federal Trade Commission Identity Theft Report, available at the
FTC’s website, or an affidavit which is substantially similar to the Federal Trade Commission
Identity Theft Report.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE
USE
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
What to Do If You Find a Mistake On Your Statement
If you think there is an error on your statement, you can provide notice of the error to us (an
“Error Notice”) by using one of two methods: (1) You may write to us at:
Synovus Bank
Dispute Resolution Office
Synovus Card Services
P.O. Box 84050
Columbus, GA 31908-4050.
Or, (2) you can submit your Error Notice online by visiting www.synovus.com and sending
us your details and the required information through the credit card Secure Messages system.
In your Error Notice, you must provide the following information:
• Account Information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error, and any other
12

information regarding the charge that may help us identify it, such as the vendor or
date.
• Description of problem: If you think there is an error on your statement, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.
Your Error Notice regarding any potential errors on your statement must be in writing
(including electronic written notice), and must be submitted to us by using one of the two
contact methods described above. You may call us instead, but if you do, we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Error Notice
When we receive your Error Notice, we must do two things:
(1) Within 30 days of receiving your Error Notice, we must tell you that we received your
Error Notice. We will also tell you if we have already corrected the error; and
(2) Within 90 days of receiving your Error Notice, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that
amount;
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount;
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance; and
• We can apply any unpaid amount against your Credit Limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest
or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of the
amount you owe and the date payment is due. At a minimum, you will have ten (10)
days to pay the amount owed after receiving the statement. If you do not pay the amount
you owe by the due date, we may then report you as delinquent which may negatively
impact your credit.
If you receive our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.

(1) The purchase must have been made in your home state or within 100 miles of your
current mailing address; and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.);
(2) You must have used your Card for the purchase. Purchases made with cash advances
from an ATM or with a check that accesses your credit card account do not qualify; and
(3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact
us in writing at:
Synovus Bank
Dispute Resolution Office
Synovus Card Services
P.O. Box 84050
Columbus, GA 31908-4050
Or contact us online through the credit card Secure Messages system by visiting
www.synovus.com.
While we investigate, the same rules apply to the disputed amount as discussed above. After
we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

OUR RIGHTS AND HOW THEY AFFECT YOU

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit
card, and you have tried in good faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the purchase. To use this right, all of the
following must be true:

Telephone Monitoring
From time to time, we may monitor and/or record telephone calls regarding your Account
with us to assure the quality of our service. By entering into this Agreement, you give us your
express consent to do so.
Refunds
If a seller agrees to give a refund for a Purchase made with your Card, such refund will be
provided as a credit on your Account instead of cash refund.
No Waiver of Rights; Disputed Amounts
We can accept late or partial payments without losing any of our rights under
this Agreement. You agree not to send us partial payments marked “paid in
full,” “without recourse,” or similar language. If you send such a payment,
we may accept it without losing any of our rights under this Agreement. All
written communications concerning disputed amounts, including any check
or other payment instrument that indicates that the payment constitutes
“payment in full” of the amount owed or that is tendered with other
conditions or limitations or as full satisfaction of a disputed amount, must be
mailed or delivered to Synovus Bank, Dispute Resolution Office, Synovus Card
Services, P.O. Box 84050, Columbus, GA 31908-4050.
Credit Reports and Information
You authorize us to make or have made any credit, employment and investigative inquiries,
including obtaining consumer reports on you from credit reporting agencies and/or other
third party sources, as we deem appropriate in connection with your application for or the
extension of credit on the Account, or the update, renewal or review of the Account, the
collection of amounts owing on the Account, and/or other related purposes, in accordance
with applicable law. Upon your request, we will inform you whether or not a consumer report
was requested, and if one was requested, of the name and address of the consumer reporting
agency that furnished the report. You agree that we may furnish information concerning your

13

14

Account or credit file to consumer reporting agencies and others who may properly receive
that information, in accordance with applicable law. Late payments, missed payments, or
other defaults on your Account may be submitted to a credit reporting agency and reflected
in your credit report.
Notice of Inaccurate Information
If you believe that we have information about you that is inaccurate or that we have reported or
may report to a credit reporting agency information about you that is inaccurate, please notify
us of the specific information that you believe is inaccurate by writing to us at Synovus Card
Services, P.O. Box 84050, Columbus, GA 31908-4050.
Collection and Default
Unless prohibited by applicable law, your Account is considered to be in default if (1) you do not
make at least the Minimum Payment on or before the Payment Due Date, (2) you exceed your
Credit Limit by making a Purchase, Cash Advance, or other transaction in connection with your
Account or any other Synovus account, (3) you become subject to bankruptcy or insolvency
proceedings, (4) you become subject to attachment or garnishment proceedings, (5) you give
us any materially false information or signature, (6) you die, or (7) you fail to comply with any
portion of this Agreement. Our accepting a late or partial payment does not waive the default.
Unless prohibited by applicable law, default on this Account will constitute default on all
accounts you hold with us. Subject to any notice of default and right to cure or other restrictions
of applicable law, if you are in default, we may declare the entire balance due immediately.
Unless prohibited by applicable law you agree to pay our reasonable costs and attorneys’ fees
related to the collection of your Account to the extent permitted by the state in which you live.
Change of Terms
Subject to the limitations of applicable law, we may, at any time, change or
remove any of the terms and conditions of, or add new terms or conditions to,
this Agreement. We will provide written notice of such a change to you then in
the manner required by applicable law, and, you hereby consent to receipt of
such notice electronically where electronic notice is permitted by applicable
law. As of the effective date, the changed or new terms will apply to new
Purchases, Cash Advances and Balance Transfers and also to the outstanding
balance of your Account, subject to the limitations of applicable law.
Delay in Enforcement
We can delay enforcing our rights under this Agreement without losing them.

OTHER PROVISIONS
Ownership and Use of Your Card
As the Account Cardholder(s), you are liable for all credit obtained under your Account. If you
authorize another person to use your Card or Convenience Check, you are liable for any credit
obtained on your Account for as long as that person holds the Card or Check. In addition, you
will remain liable until you recover possession of the Card or Check. Misuse of your Card by an
Authorized User will not be considered unauthorized use (see “Lost Cards and Unauthorized
Use” above). Upon demand, you must return any Card we supply to you or destroy the Card
by cutting it in half immediately. Convenience Checks must be mailed or returned to us upon
request.
Transfer and Termination of Your Account
You may not transfer your Account to any other person. We may assign your Account to any
other person at any time. Either you or we may terminate or suspend your credit privileges at
15

any time. However, you will remain liable for all amounts owed on your Account until they
are paid in full.
Foreign Currency Conversion
You may make a Purchase or obtain a Cash Advance in a currency other than U.S. dollars. If
you do, Visa will convert the transactions into U.S. dollars. The conversion rate between the
transaction currency and the billing currency will be either (1) a rate selected by Visa from the
range of rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate Visa itself receives, or (2) the government-mandated
rate in effect for the applicable central processing date. The conversion rate Visa uses may differ
from any published rate in effect on the day that you made the transaction or it was posted to
your Account. You agree to pay us the amount as converted into U.S. dollars according to Visa
procedures.
Honoring Your Card
We are not liable for the failure or refusal of a merchant, ATM, or other institution to honor your
Card. Although you may have credit available, we will not be liable for the failure to authorize
credit due to operational difficulties or mistakes. A transaction made above a certain dollar
amount may require authorization by us before the transaction can be approved. In addition,
we may limit the number and amount of transactions approved in one day for security reasons.
Servicing the Account
We will send all written notices and statements to your address and/or email address (if
applicable to your Account) as it appears on our records. To avoid delays and missed payments
that could affect your credit standing, you agree to advise us promptly if you change your
mailing address, email address, place of employment, and/or telephone number(s). You
authorize us or any of our agents to contact you at any telephone numbers you provide on your
credit application or that you provide to us thereafter, including a ported landline, cellular
phone, mobile phone or similar device, regarding payments due, Account activity, Account
information or for other purposes we deem necessary, in accordance with applicable law.
You authorize those contacts to be made using an automated telephone dialing system and/or
prerecorded messages and/or text messages. You may revoke your consent to being contacted
on your mobile phone using an automated telephone dialing system and/or prerecorded
messages and/or text messages at any time by calling us at 1-888-SYNOVUS (796-6887)
or by sending written notice to Synovus, Customer Support, P.O. Box 23061, Columbus,
GA 31902-3061. You authorize us or any of our agents to send email to the addresses you
provide us on your credit application or otherwise. You may be charged by your wireless
provider for data, phone usage or minutes. You authorize us or any of our agents to leave
a message with a person or on a voice mail, answering machine or answering service that
answers the number(s) you have provided to us. You also authorize us or any of our agents to
send U.S. postal mail to the addresses you provide to us on your credit application or otherwise.
You also confirm that by providing the mobile phone number and/or email address of an
Authorized User(s), you have received consent from the Authorized User(s) to provide this
contact information to us, and that the Authorized User(s) have expressly consented to receive
calls and/or text messages from us or any of our agents to the number(s) provided, including
through an automated telephone dialing system and/or prerecorded messages and/or text
messages, about authorized Card transactions, and you agree to indemnify Synovus from any
and all losses, damages and penalties arising out of claims or actions that such Authorized User
did not consent. We can also contact other persons you have listed on your credit application
to find out information about you and how to contact you in the event we are unsuccessful in
contacting you as described above.

Synovus Fraud Alerts Program
Synovus Fraud Alerts is provided through a different service. Visit www.synovus.com/
fraudfaqs for more information on Synovus Fraud Alerts.
Text Fraud Alerts: Fraud alerts will be provided to you via free text messages to the mobile
phone number associated with your Account from 74233. Message frequency depends on
account activity. You may opt out at any time by texting STOP to 74233. By sending STOP
to 74233, you agree to one additional confirmation message stating that you’ve opted out and
will no longer receive text messages from Synovus. Get additional support or help by calling
1-888-SYNOVUS (796-6887). Carriers are not responsible for any delayed or undelivered
messages. Message may be delayed or not delivered due to factors outside the carrier’s
control. PARTICIPATING WIRELESS CARRIERS: AT&T, Metro PCS, Sprint, T-Mobile®,
Verizon Wireless. Our Privacy Policy is located at www.synovus.com/privacy. Text fraud alerts
are available only to customers who can receive text messages through one of the above-listed
Participating Wireless Carriers.
Other Fraud Alerts: If you cannot receive text fraud alerts because you do not receive
services through a Participating Wireless Carrier, or if you have opted out of receiving text
fraud alerts, we may still send you fraud alerts to your email address on record with us or
by calling you at the telephone number on record with us. If you want to opt out of email or
telephone alerts you may call us at 1-888-SYNOVUS (796-6887).
Authorized User Fraud Alerts
We will provide text fraud alerts to your Authorized Users when you obtain their consent for
such alerts and provide their mobile phone number to us. By providing us an Authorized
User’s mobile phone number, you represent and warrant to us that the Authorized User
voluntarily consented to receiving Synovus text fraud alerts, and you indemnify Synovus
from any and all losses, damages and penalties arising out of claims or actions that such
Authorized User did not so consent.
Opting-In to Receive Your FICO® Score on Your Statements
If you would like to receive your FICO® Score for free each month on your Account statement,
you can opt-in by calling Synovus customer service at 1-888-796-6887. By opting-in to
receive your FICO® Score on your Account statements, you authorize Synovus Bank to display
your FICO® Score based on Equifax® information on the monthly Account statements that
we send to you. Only the FICO® Score of the primary Account holder may be provided,
and the monthly statements displaying your FICO® Score will only be sent to the address
and/or email address associated with your Account. You also acknowledge that any joint
owner of your Account or other person that has access to the mail or email to which your
monthly statements are addressed may be able to view your FICO® Score displayed on your
statement, and you authorize us to send the statements containing your FICO® Score to such
address(es). If you decide you no longer wish to have your FICO® Score displayed on your
Account statements, you may opt-out by calling us at 1-888-796-6887.
FICO is a registered trademark of the Fair Isaac Corporation in the United States and other
countries.
Severability
In the event that any provision of this Agreement is invalid or unenforceable, or determined
to be invalid or unenforceable by a court of competent jurisdiction, under any applicable law,
including the Military Lending Act, the remaining provisions will remain in effect.
Entire Agreement; Interpretation
This Agreement constitutes the final expression of the credit agreement between you and us

relating to your Account. The headings used in this Agreement are for the convenience of
reference only and are not intended to define or describe the scope or intent of any portion
of the Agreement.
Governing Law
This Agreement and your Account, and any claim, dispute or controversy
(whether in contract, tort, or otherwise) at any time arising from or relating
to your Account, this Agreement or any transferred balances, are governed
by and construed in accordance with applicable federal law and the laws of
the state of Georgia. The legality, enforceability and interpretation of this
Agreement and the amounts contracted for, charged and reserved under
this Agreement will be governed by such laws. This Agreement is entered
into between you and us in Georgia. We make decisions about granting
credit to you from, extend credit to you under this Agreement from, and
accept your payments in, Georgia.
Arbitration of Disputes
Except as expressly provided below, any controversy that arises out of or
is related to (a) this Agreement (including any dispute over the validity of
this Agreement to arbitrate disputes or of this entire Agreement), or (b)
your Account, or (c) any relationship resulting from this Agreement, or (d)
any insurance or other service related to your Account, or (e) any other
agreement related to your Account or any such service, or (f) breach of this
Agreement or any other such agreement, whether based on statute, contract,
tort or any other legal theory, in which the aggregate amount in controversy
for all claimants exceeds $15,000 including interest and attorneys’ fees
(any Claim”) will be settled on an individual basis by binding arbitration
under the Federal Arbitration Act (“FAA”). Judgment on the arbitration award
may be entered in any court having jurisdiction. Any dispute regarding whether a particular
controversy is subject to arbitration will be decided by the arbitrator(s). If any part of the
damages or other relief requested is not expressly stated as a dollar amount, the controversy
will be a Claim that is subject to arbitration. You and we acknowledge and agree that the
transactions contemplated by this Agreement, and any controversy that may arise under or
relate to this Agreement, your Account, or the services or other agreements described above,
involve “commerce” as that term is defined and used in the FAA. The arbitration will be
administered by the American Arbitration Association (the “AAA”) under its Commercial
Arbitration Rules (the “Arbitration Rules”). We will tell you how to contact the AAA and
how to get a copy of the Arbitration Rules without cost if you ask us in writing to do so. The
Arbitration Rules permit you to request deferral or reduction of the administrative fees of
arbitration if paying them would cause you a hardship. Any in-person arbitration hearing will
be held in Columbus, Georgia, where our employees and records of your Account are located.
Each arbitrator shall be a licensed attorney who has been engaged in the private practice
of law continuously during the ten years immediately preceding the arbitration or a retired
judge of a court of general or appellate jurisdiction. The arbitration award shall award only
such relief as a court of competent jurisdiction could properly award under applicable law,
including attorneys’ fees if allowed by applicable law or agreement, and may award to the
prevailing party all pre- and post-award expenses of arbitration. All statutes of limitation,
defenses, and attorney-client and other privileges that would apply in a court proceeding
will apply in the arbitration. The filing of a demand for arbitration in accordance with
the Arbitration Rules will be deemed the commencement of an action for purposes of any

applicable statute of limitations. There will be no class Claims—Claims by or on behalf of
other persons will not be considered in or consolidated with the arbitration proceedings
between you and us.
This Agreement does not limit the right of you or us, whether before, during or after the
pendency of any arbitration proceeding, to exercise self-help remedies such as set-off or
repossession and sale of collateral, or to obtain provisional or ancillary remedies or injunctive
or other traditionally equitable relief (other than a stay of arbitration) necessary to protect the
rights or property of the party seeking relief pending the arbitrator’s determination of the merits
of the Claim. The taking of any of the actions described in the preceding sentence by either
party or the filing of a court action by a party shall not be deemed to be a waiver of the right to
demand arbitration of any Claim asserted as a counterclaim or the like in response to any such
action. This Agreement to arbitrate disputes will survive the closing of your Account and the
termination of your Agreement with us.
Please read this arbitration agreement carefully. It limits or waives certain of
your rights. With respect to claims that you are agreeing to arbitrate pursuant
to this Agreement, you are waiving your right to bring a court action and to
have a jury trial. There will be no class claims in arbitration. Discovery may
be more limited in arbitration than in a court proceeding, and the right
and grounds to appeal from an arbitrator’s award are more limited than in
an appeal from a court judgment. Certain other rights you have in a court
proceeding also may not be available in arbitration.
BY USING YOUR CARD OR ACCOUNT, YOU ACKNOWLEDGE THAT (1) YOU HAVE
RECEIVED AND HAVE READ A COMPLETED COPY OF THIS AGREEMENT (2)
YOU UNDERSTAND THIS AGREEMENT AND (3) YOU AGREE TO ITS TERMS,
INCLUDING THE ARBITRATION PROVISION.

16

17

18

19

JOB SPECS:
Flat Size:
34.752” x 6.75”
Finished Size:
3.5” x 6.75”

Credit Card
Cardholder
Agreement

The card issuer:
Synovus Bank
1111 Bay Avenue
Columbus, Georgia 31902
December 2020

F03-Y450-0 -1220

READ THIS ENTIRE AGREEMENT CLOSELY. IT CONTAINS
IMPORTANT DISCLOSURES AND THE TERMS OF YOUR
CREDIT CARD ACCOUNT.

Colors:
Front: Black
Back: Black
Bleed: No
Note: None

CONSUMER CREDIT CARDHOLDER AGREEMENT

Purchases, Cash Advances or Balance Transfers
You may use your Card or Convenience Checks to purchase or lease goods or services from
participating establishments. You also may use your Card to obtain Cash Advances from your
Account at an ATM, or by presenting the Card to us, or to any institution that accepts the
Card for that purpose. To protect you, we restrict Cash Advances using this Card to $1000 per
ATM transaction and $1500 per over-the-counter transaction. In addition, only three Cash
Advance transactions may be made per day, and the total outstanding Cash Advance balance
on your Account at any given time may not exceed the Cash Advance Limit applicable to your
account at that time. You also may use your Card to obtain Balance Transfers, subject to the
Balance Transfer terms described in this Agreement. We may limit the use of the Account at
our discretion. Such limitations include, but are not limited to, Internet-related gambling
transactions. Your Account/Card will be restricted from online betting activity, which
includes, but is not limited to, lottery tickets, casino gambling chips, off-track betting, and
wagers at racetracks. You will owe us for these amounts, plus any applicable Finance Charges
and other applicable charges or fees, payable in U.S. dollars.
Recurring Preauthorized Transactions
Recurring preauthorized transactions occur when you authorize a merchant to automatically
initiate a transaction using your Account on a recurring basis. If we issue a new Card with a
different number or expiration date to you, we may (but are not obligated to) provide your
new card number and expiration date to a merchant with whom you have set up a recurring
preauthorized transaction in order to continue your recurring preauthorized transactions. By
signing this Agreement, you authorize us to provide your new card number and expiration
date to such merchants. Synovus updates the merchants through Visa using the Visa Account
Updater Service. Merchants use the Visa Account Updater Service which allows them to
automatically receive new credit card number and expiration date associated with your
Account, however, not all merchants subscribe to this service. There will be circumstances
where you will instead have to contact the merchant to provide updated card information.
Synovus shall not be responsible for any failed recurring preauthorized transactions with
merchants after a new Card is provided, so be sure to confirm your card information with
merchants with which you have recurring preauthorized transactions set up.
Your Credit Limit
Your Credit Limit and Cash Advance Limit are disclosed to you when you receive your Card
and, generally, on each monthly statement. The Credit Limit is the total amount of credit
available for your Account; however, only a portion of that is available for Cash Advances.
The Cash Advance Limit is the amount you have available for Cash Advances. The amount

of credit available under the Cash Advance Limit will never exceed the total amount of credit
available under the Credit Limit.
We may change your Credit Limit from time to time and will notify you accordingly. We
base that decision on a variety of factors such as your payment and transaction history with
us, and information we receive from third parties, including credit reporting agencies. The
amounts shown on your monthly statement as available credit do not take into account
Purchases, Balance Transfers, Cash Advances, interest and other Finance Charges or fees,
any other transactions, or credits which post to your Account after the Closing Date of that
monthly statement. We may delay increasing your available credit for up to ten (10) days
after you make a payment. Your Credit Limit (and balances in excess of your Credit Limit)
may be treated differently based on the type of Account you have. If you are not sure which
type of Account you have, please look at your Card, review your Card Carrier, or call us at
1-888-SYNOVUS (796-6887).
You may not use your Account in any way that would exceed your Credit Limit. However, in
certain circumstances, Purchases, Cash Advances or other transactions using your Card or
Account may be approved even if they will result in your balance exceeding your Credit Limit.
In the event that you do use your Card or Account in a manner that results in your balance
exceeding your Credit Limit, you are liable for and must repay the excess amount according
to the terms of this Agreement.
Credit Authorizations
Subject to applicable law, we may limit or refuse to authorize or accept any transaction on
your Account for any reason, including but not limited to a transaction that would cause you
to exceed your Credit Limit, or your Account being delinquent. We will not be liable to you
or any third party for limiting or refusing to authorize or accept any transaction on your
Account, or if (1) we close your Account; (2) anyone refuses your Card, Check, or Account; or
(3) we stop (or do not stop) a payment on a Check. Unless otherwise required by law, we will
not be liable for goods or services you purchased or leased using your Account.
Balance Transfer Checks
You agree that any check we issue on your behalf to a financial institution other than us
or our affiliates for the purpose of effecting a Balance Transfer at your request (“Balance
Transfer Check”) will not be returned to you. We are entitled to return a Balance Transfer
Check unpaid if there is not enough available credit in your Account, if your Account is in
default, or if we have terminated your right to obtain further credit under your Account. If we
honor the Balance Transfer Check under these circumstances, the amount in excess of your
Credit Limit will be due immediately. We may pay Balance Transfer Checks dated more than
six months prior to the date they are presented for payment. We will not certify a Balance
Transfer Check. If you request a Balance Transfer when you open your Account, it may not
be processed for up to 10 days from account opening date to allow us time to provide you
with legally required disclosures. Balance Transfer(s) do not earn rewards under reward
programs. The minimum amount of a Balance Transfer is $100. We will only approve
Balance Transfer amounts that are at least $200 under your Credit Limit. For example, if your
Credit Limit is $2,000, we will only approve a Balance Transfer of $1,800 or less.
Convenience Checks
We may supply you with Convenience Checks that are subject to the following conditions.
Payment of a Convenience Check will be treated as a Cash Advance on your Account, subject
to the Cash Advance Transaction Fee described herein. The amount of the Convenience Check
will be added to the Cash Advance balance on your Account, subject to interest charges, as of
the date the Convenience Check is deposited. Your Convenience Check must be written in U.S.

dollars. Only the person(s) whose name(s) appears on the Convenience Check may sign it. A
Promotional Check used after the date specified in the promotional check offer as the date by
which it must be used to obtain the special promotional offer, is not treated as a Promotional
Check but instead is treated as a regular Convenience Check and a transaction resulting from
its use as a regular Cash Advance. We are authorized to pay any Convenience Check drawn on
your Account even if the signature does not correspond exactly to the signature on our records.
You agree that Convenience Checks written on your Account will not be returned to you. We
are entitled to return your Convenience Check unpaid if there is not enough available credit in
your Account, if your Account is in default, or if we have terminated your right to obtain further
credit under your Account. If we honor the Check under these circumstances, the amount in
excess of your Credit Limit will be due immediately. You may not use a Convenience Check to
make payments on your Synovus Account or other debt you have with us or our affiliates. We
may pay Convenience Checks dated more than six months prior to the date they are presented
for payment. You may not write a postdated Convenience Check, but we may pay a Convenience
Check regardless of a post-date. We will not certify a Convenience Check.
Overdraft Protection
If you choose to use your Account for Overdraft Protection coverage, you agree that Cash
Advances will be automatically made from your credit card Account to your designated
Synovus Bank Deposit Account (the “Deposit Account”) on occasions when the amount of
the Deposit Account debits authorized by authorized party(ies) are in excess of the balance
available in the Deposit Account. These debits may be checks or drafts written by authorized
party(ies), automatic withdrawals by authorized party(ies), check card transactions made by
authorized party(ies); or any other debits authorized or originated by authorized party(ies).
Each such cash advance (an “Overdraft Advance”) must be repaid as a part of your total
indebtedness under this Agreement with all applicable Finance Charges. The Credit Limit
applicable to your credit card Account from time to time pursuant to this Agreement will not
be increased or expanded because of Overdraft Advances. By participating in the Overdraft
Protection coverage, you acknowledge and agree to the following: (i) the privileges attached
to this Overdraft Protection coverage are contingent upon you maintaining and properly
handling both the Deposit Account and the credit card Account; (ii) the Overdraft Protection
will immediately terminate upon the closing of either the credit card Account or the Deposit
Account for any reason; (iii) we may review the Account involved in this Agreement and, upon
a finding of any misuse, fraudulent behavior, or violation of the terms of this Agreement, we
may withdraw any Overdraft Protection coverage or suspend your use of the Card or other
credit extended under your Account; (iv) it is possible that an Overdraft Advance may result in
creating a credit card Account balance in excess of your approved Credit Limit, or exceeding
the available credit under any lower limit you may assign to your credit card Account (which
also applies to Overdraft Advances), which may cause Purchase or Cash Advance transactions
with your Card to be declined. However, we are not obligated to make such Overdraft Advances
that would exceed your Credit Limit; and (v) we reserve the right to process, under normal
return procedures, any check or debit items which would create an excess balance or any other
situation in violation of this or any other agreement between us and you. You acknowledge
that you can choose to terminate the Overdraft Protection coverage on your credit card at any
time by calling us at the number on the back of your Card and following the procedures for
cancellation of the coverage.
Authorized Users
You may designate Authorized Users of the Account and may request Cards for those Authorized
Users. You may set a maximum amount of credit (in an amount less than the Credit Limit)
as a spending limit assigned to the Card for an Authorized User; provided that the maximum

amount of credit you set for each Authorized User may not, in the aggregate, exceed the Credit
Limit. In addition, the aggregate outstanding balance for the Account may not exceed the Credit
Limit, without regard to any maximum amount of credit established for each Authorized User.
You are responsible for the use of the Account by any Authorized User. You may request to have
an Authorized User removed from your Account and we will use reasonable efforts to deactivate
such user’s Card promptly upon your request. However, you are responsible for collecting and
destroying any Cards that the Authorized User has in their possession. Your request to remove
an Authorized User will not relieve you of responsibility for the charges the authorized user has
made on your Account.
Authorized Users are permitted to use the card issued to them under the Account, make
payments on the Account, report their Card as lost/stolen, confirm a fraudulent transaction
on their Card, and initiate a dispute on the Account for transactions posted on their Card.
Additionally, each Authorized User may: obtain basic card Account information (including
information such as spending limit available for their Card, Payment Due Date, etc.). Under no
circumstances will an Authorized User be permitted to: discuss your credit information; close
or reopen the Account; obtain assistance in registering/accessing our website; or request the
following: name changes; Credit Limit changes; replacement Cards; the addition of Authorized
Users; or removal of a cardholder (except that an Authorized User will be permitted to remove
themselves as an Authorized User on the Account).

3

4

5

6

Special Advances: Credit we may extend to you in the form of Promotional Balance
Transfers or Promotional Checks.
Total Average Daily Balances: The total of your (i) Average Daily Balance of Purchases,
(ii) Average Daily Balance of Balance Transfers, (iii) Average Daily Balance of Overdraft
Advances, (iv) Average Daily Balance of Cash Advances and (v) Average Daily Balance of
Special Advances.
Transaction Fee: A fee charged in connection with a Transaction.
Unauthorized Use: The use of a Card by a person, other than the Cardholder, who does
not have actual, implied or apparent authority for such use, and from which the Cardholder
received no benefit.

The definitions listed below will apply throughout this Agreement and in your monthly
statement. In addition, the words you, your, and yours refer to the Cardholder(s) who holds
the Card and is responsible for the Account. The words we, us, and our refer to Synovus Bank,
Columbus, Georgia.
Account: The credit card account for which you were issued a Card that is subject to all terms
and conditions of this Agreement.
Annual Percentage Rate: A measure of the cost of credit, expressed as a yearly rate.
ATM: Automated Teller Machine.
Authorized User: The person(s) authorized by a Cardholder to obtain credit under an
Account, whether named in an application as an Authorized User or otherwise.
Average Daily Balance: A balance amount for a particularly type of Account transaction,
as calculated in accordance with the provisions of this Agreement.
Balance Transfer: A transaction in which, pursuant to your request, we issue a check
on your behalf directly to another financial institution to transfer to your Account all or a
portion of an outstanding balance you owe. Your use of a Convenience Check or your Card,
or any Cash Advance obtained by such use, to pay all or a portion of such an outstanding
balance is not a Balance Transfer for the purposes of this Agreement. A Balance Transfer
(with the exception of a Promotional Balance Transfer) is not a Cash Advance.
Billing Cycle: The time interval covered by a monthly statement. Each Billing Cycle is
approximately 30 days in length.
Card: Any Visa credit card issued by us in connection with your Account, which you or any
Authorized User(s) may use to obtain certain Cash Advances, make Purchases, or lease goods
or services on credit pursuant to the terms of this Agreement. Use of your Account number or
Card number to obtain credit will be considered a use of the Card.
Card Carrier: The mailed carrier that contains your Card.

Cardholder: The Person to whom a Card is issued, or who has agreed to pay obligations
arising from a Card issued to another Person.
Cash Advance: Credit extended in the form of a cash loan through any financial institution
honoring the Card. The Card may be presented directly or through any other credit instrument,
check, device, overdraft protection coverage or ATM that we make available to you.
Cash Advance Limit: The maximum percentage of your Credit Limit that you may use for
Cash Advances. This limit will be displayed in the Card Carrier, on your statements and on
your online Account page. The Cash Advance Limit is subject to change at our discretion, and
we will communicate any such change to you in writing no less than [thirty (30) days prior
to it taking effect].
Closing Date: The date of the last day of a Billing Cycle.
Convenience Check: Any check we make available to you for the purpose of drawing
against your Account.
Credit Limit: The maximum amount of credit available to you on your Account.
Finance Charge: A fee or charge representing the cost of borrowing on your Account.
Grace Period: The period of at least 25 days between the close of each Billing Cycle and your
payment due date for such Billing Cycle. We will not charge you interest on Purchases if you
pay your entire balance by the due date of each month.
Interest Charge: A Finance Charge attributable to the application of a periodic interest rate.
Margin: The amount added to the Prime Rate in the calculation of a variable Monthly
Periodic Rate. “Prime Rate” is defined below in this Agreement under “Regular Monthly
Periodic Rates.”
New Balance: The total outstanding Account balance on the Closing Date specified in your
monthly statement.
Overdraft Protection Transaction or Overdraft Advance: If applicable to your Account,
an advance we make to cover overdrafts on a designated deposit account maintained with
us or with a financial institution that is our affiliate or subsidiary. Although they are Cash
Advances, Overdraft Protection Transactions are included in a separate Average Daily Balance
of Overdraft Advances, to which we apply the same Introductory or Regular Monthly Periodic
Rate and corresponding Annual Percentage Rate as we apply to your Balance Transfers.
Previous Balance: The balance of your Account at the beginning of a Billing Cycle. This will
be the same as the “New Balance” shown on your previous bill.
Promotional Balance Transfer: Special Balance Transfers that we may offer you from time
to time to obtain Special Advances which, although they are Cash Advances, are offered at a
special reduced Monthly Periodic Rate and corresponding Annual Percentage Rate applicable
for a period of time specified in the promotional balance transfer offer.
Promotional Check: Special Convenience Checks we may offer you from time to time to
obtain Special Advances which, although they are Cash Advances, are offered at a special
reduced Monthly Periodic Rate and corresponding Annual Percentage Rate applicable for a
period of time specified in the promotional check offer.
Purchase: Any extension of credit to your Account for the purpose of purchasing or leasing
goods or services from participating establishments.
Other Charges: Charges to your Account other than Finance Charges.
Periodic Rate: The percentage rate of Interest Charge imposed against a balance for a period.
In this Agreement, a “Monthly” Periodic Rate is used.

1

2

This Agreement governs the use of your Visa Card Account and contains both your and our
respective responsibilities. Please read it in its entirety and keep it for your reference. The
accompanying Summary of Terms is incorporated into and made a part of this Agreement.
In addition, the application, acceptance certificate or other request you signed or submitted
for this Account (the “Application”), our Card and the Card Carrier that we send with your
Card, and your signature (including any electronic or digital signature) on any Application,
sales slip or other evidence of indebtedness on your Account, are incorporated into and made
a part of this Agreement.
This Agreement begins on the earlier of (i) the date you sign or submit an Application that we
approve or (ii) the first date that we extend credit to you on your Account, including by means
of a Purchase transaction, a Cash Advance transaction, a Balance Transfer transaction, a
Special Advance transaction, your use of a Convenience Check, or any other extension of
credit. A Balance Transfer you request on your Application will be applied to your Account
and sent to your designated payee(s) no earlier than 10 days after your Account is opened
and we have provided the account opening disclosures to you. On the same day, the Balance
Transfer request to your designated payee, you may cancel or modify your Balance Transfer
request by calling the number on the back of your Card between the hours of 7:00 a.m. and
11:00 p.m. eastern.
®

DEFINITIONS

USING YOUR CREDIT CARD

MAKING PAYMENTS
Monthly Statements; Annual Summary Statement
We will send you an Account statement for each Billing Cycle at the end of which your Account
has a debit or credit balance of $1 or more, or on which a finance charge has been imposed,
or as otherwise required by applicable law. You agree to pay us, or any party to whom we may
transfer and assign your Account, in U.S. dollars according to all terms and conditions of
this Agreement. In addition to a monthly statement, you may be able to request an optional
annual summary statement of your Account, which will be provided at the fees specified in
this Agreement.
Minimum Payment
The Minimum Payment is the greater of (i) the dollar amount shown in the accompanying
Summary of Terms, or (ii) the total, rounded up to the next dollar, of (A) the specified
percentage (shown in the accompanying Summary of Terms) of your New Balance, plus (B)
any applicable Cash Advance Transaction Fees or Foreign Transaction Fees, plus (C) any
Penalty fees (e.g. Late Payment Fees and Returned Payment Fees.) If your New Balance is
less than the dollar amount shown in the accompanying Summary of Terms, the Minimum
Payment is your entire New Balance. If you elect not to pay your New Balance in full, you must
pay at least the Minimum Payment so that it is credited to your Account by the “Payment Due
Date” shown on your statement, which is at least 25 days after the Closing Date of the Billing
Cycle. Your Minimum Payment will also include any past due amount and any amount by
which the New Balance exceeds your Credit Limit, whichever of these two is greater.
Application of Payments
We reserve the right to apply payments to your Account in any manner we choose at our sole
discretion, in accordance with applicable law. To comply with federal law, when applicable
we (i) apply portions of payments in excess of the Minimum Payment to balances with the
highest Annual Percentage Rates first, using a method permitted by those rules, and (ii)
apply portions of on-time partial payments as of the start of the Billing Cycle to Purchases still
subject to the Grace Period at the end of the previous Billing Cycle, determined in accordance
with applicable law.

Security Interest
If we now, or in the future, hold any title, pledge or security interest in any of your property
other than a residence, it may be that the terms of the instrument creating such title, pledge or
security interest will also secure your obligations on this Account.
Posting of Payments
Payments will be posted to your Account as of the date received, if (1) the payment is received by
5:00 p.m. local time at the remittance address shown on your statement, (2) is made in person
at any Synovus Bank prior to its close of business, (3) is received by 5:00 p.m. Eastern Time by
online payment at our website listed on your statement, or (4) is received by 5:00 p.m. Eastern
Time by telephone payment to our customer service telephone number listed on your statement.
Payments received after 5:00 p.m. local time on any day at the remittance address shown on
your statement, or received after 5:00 p.m. Eastern Time on any day by such online payment,
or by such telephone payment, will be posted as of the next day. Any other payments may be
subject to a delay in posting of up to 5 days after the date of receipt. If we fail to post payments
in accordance with these provisions, your Account will not be subject to Finance Charges or
other charges attributable to our failure to post payments as these provisions require. If any
such Finance Charges or other charges are imposed, we will adjust your Account so that the
charges imposed are posted to your account during the next Billing Cycle. While we try to
reflect payments on your Account in your available credit amount promptly after the payment
has posted, it may take up to 10 calendar days after your payment has posted for it to reflect
in your available credit amount. All payments on your Account must be made in U.S. dollars.

HOW INTEREST CHARGES AND OTHER FINANCE CHARGES ARE
DETERMINED
Your Finance Charge for any Billing Cycle will include the following components, the total of
which constitutes your total Finance Charge for the Billing Cycle:
(1) a Cash Advance Transaction Fee, imposed (i) on each Cash Advance transaction posted
during a Billing Cycle, in an amount determined as provided in the accompanying
Summary of Terms, (ii) on each Promotional Check transaction posted during a Billing
Cycle, in an amount determined as provided in the accompanying Summary of Terms,
unless a different amount is specified in the disclosures accompanying the Promotional
Check offer, (iii) on each Promotional Balance Transfer transaction posted during a Billing
Cycle, in an amount determined as provided in the accompanying Summary of Terms,
unless a different amount is specified in the disclosures accompanying the Promotional
Balance Transfer offer, and (iv) on each Overdraft Protection transaction (if applicable to
your Account), in an amount determined as provided in the accompanying Summary of
Terms; and
(2) Interest Charge amounts computed by applying the applicable Monthly Periodic Rate
or Rates, determined as provided below under “Computing the Monthly Periodic Rates
and corresponding Annual Percentage Rate”, to (i) your Average Daily Balance of Cash
Advances (including new Cash Advances), (ii) your Average Daily Balance of Purchases
(including new Purchases), (iii) your Average Daily Balance of Balance Transfers
(including new Balance Transfers), (iv) your Average Daily Balance of Special Advances
(including new Special Advances), and (v) your Average Daily Balance of Overdraft
Advances (including new Overdraft Advances); and
(3) In addition, for certain Card types, there will be added a Foreign Transaction Fee of 3%
of the total amount of all international and cross U.S. borders transactions (including
transactions made in U.S. Dollars) posted during a Billing Cycle. If you are not sure which
7

type of Card you have, please look at your Card, review your Card Carrier, or call us at
1-888-SYNOVUS (796-6887).
The Foreign Transaction Fee applies to the following credit cards:
• Synovus Classic Visa
• Synovus Rewards Visa
• Synovus Cash Rewards Visa
The Foreign Transaction Fee does not apply to the following credit cards:
• Synovus Travel Rewards Visa
• Synovus Travel Rewards Visa Signature
Finance Charges, when calculated, will be rounded up to the next cent.
Paying Interest
When Interest Charges Begin to Accrue: Interest Charges on Purchases and Balance
Transfers will be imposed at the applicable Monthly Periodic Rates from the date each
Purchase is made and will continue to accrue on unpaid balances as long as they remain
unpaid subject to any time period within which to pay to avoid paying interest on Purchases.
No Interest Charge on Purchases and Balance Transfers will be imposed for any Billing Cycle
in which the Previous Balance is zero or a credit balance, or is paid in full by the Payment Due
Date shown on the statement for the previous Billing Cycle. Interest Charges on Cash Advances,
Overdraft Protection transactions, and Special Advances (consisting of Promotional Check
transactions and Promotional Balance Transfer transactions) will be imposed at the applicable
Monthly Periodic Rates from the date each Cash Advance, Overdraft Protection transaction,
Promotional Check transaction or Promotional Balance Transfer transaction is made, and will
continue to accrue on unpaid balances as long as it remains unpaid.
How to Avoid Paying Interest on Purchases and Balance Transfers: Your Payment Due
Date will be at least 25-days after the close of each Billing Cycle. We will not impose any
Interest Charges on Purchases and Balance Transfers if you pay your entire New Balance by
the Payment Due Date each month.
Calculating the Balance Subject to Interest Rate
Average Daily Balance of Cash Advances (including new Cash Advances): To
calculate the Average Daily Balance of Cash Advances, we take the beginning Cash Advance
balance of your Account each day, including unpaid Interest Charges on Cash Advances
(which balance may also include unpaid Transaction Fees of the kinds mentioned below and
unpaid Interest Charges thereon), add any new Cash Advances as of the date of transaction,
add the Cash Advance Transaction Fee on any Cash Advances, Overdraft Protection
transactions, Promotional Check transactions and Promotional Balance Transfers, as of the
date of transaction of each Cash Advance, Overdraft Protection transaction, Promotional
Check transaction or Promotional Balance Transfer, and subtract the applicable portion of
any payments and credits as of the date of transaction. This gives us the daily balance for
Cash Advances. Then we add all these daily balances for the Billing Cycle together and divide
the total by the number of days in the Billing Cycle. This gives us the Average Daily Balance
of Cash Advances.
Average Daily Balance of Purchases (including new Purchases): To calculate the
Average Daily Balance of Purchases, we take the beginning Purchase balance of your Account
each day, including any unpaid Interest Charges on Purchases, add any new Purchases as of
the date of transaction, and subtract the applicable portion of any payments and credits as of
the date of transaction. (However, we subtract the applicable portion of any payments you paid
by the Payment Due Date during the Billing Cycle, as of the first day of the Billing Cycle.) This
8

Computing the Monthly Periodic Rates and corresponding ANNUAL
PERCENTAGE RATE (APR)
Special or Introductory Monthly Periodic Rates: Any special or introductory
Monthly Periodic Rate and corresponding Annual Percentage Rate, the type of average daily
balances to which it applies if it does not apply to all your average daily balances, and the
period for which it is applicable, are shown on the accompanying Summary of Terms and/
or Card Carrier or, in the case of Promotional Check, Promotional Balance Transfer or other
special offers we may make in the future, will be specified in the disclosures accompanying
the special offer. For any rates specified in the accompanying Summary of Terms or Card
Carrier as “Introductory” for a specified period, those Introductory rates will expire no less
than the specified period after the opening of your Account. Except during periods and with
respect to balances for which any special or introductory Monthly Periodic Rate is applicable,
each Monthly Periodic Rate and corresponding Annual Percentage Rate applicable to your
Account will be determined as described below under “Regular Monthly Periodic Rates”.
Regular Monthly Periodic Rates: One or more Regular Monthly Periodic Rates
and corresponding Annual Percentage Rates apply to your Account, as shown in the

accompanying Summary of Terms and/or Card Carrier or, in the case of Promotional Check,
Promotional Balance Transfers or other special offers we may make in the future, as specified
in the disclosures accompanying the special offer. (For example, the Monthly Periodic Rate
and corresponding Annual Percentage Rate applicable to Purchases and Balance Transfers
may be different from the Monthly Periodic Rate and corresponding Annual Percentage Rate
applicable to Cash Advances.) The rates apply to your Account as follows:
The Regular Monthly Periodic Rate and corresponding Annual Percentage Rate applicable to
your (i) Average Daily Balance of Purchases, (ii) Average Daily Balance of Balance Transfers,
(iii) Average Daily Balance of Overdraft Advances, (iv) Average Daily Balance of Cash
Advances and (iv) Average Daily Balance of Special Advances (for any Promotional Check
or Promotional Balance Transfer balances which, in the Promotional Check or Promotional
Balance Transfer offer, we specify will have the same Regular Annual Percentage Rate as
Balance Transfers following the promotional period) (collectively, your “Total Average Daily
Balances”), is specified in the accompanying Summary of Terms or Card Carrier and, unless
otherwise specified in the accompanying Summary of Terms or Card Carrier, will be the same
for each such Average Daily Balance.
If the Monthly Periodic Rate and corresponding Annual Percentage Rate are a variable rate,
this will be specified in the accompanying Summary of Terms. If a variable rate, the following
applies: The Regular Monthly Periodic Rate and corresponding Annual Percentage Rate
applicable to your Total Average Daily Balances may vary. The Regular Monthly Periodic
Rate applied in any Billing Cycle to the Total Average Daily Balances will be equal to 1/12 of
the total of (i) the “Prime Rate” (as defined below) and (ii) the applicable Margin as shown
in the accompanying Summary of Terms. The “Prime Rate” used is the highest Prime Rate
published in the “Money Rates” section of The Wall Street Journal on the last day of the
calendar month in which the Billing Cycle begins (or if not published on that day, on the
date of its next publication following that date). If the Prime Rate increases, the Regular
Monthly Periodic Rate and corresponding Annual Percentage Rate under the above formula
may increase. As a result, the Interest Charges, the Minimum Payment, and the number of
payments may also increase. Any new Regular Monthly Periodic Rate will apply to your entire
Total Average Daily Balances, including both existing balances and new transactions, and
determined as described above.
For any Promotional Check or Promotional Balance Transfer balances which, in the
Promotional Check or Promotional Balance Transfer offer, we specify will have the same
Regular Annual Percentage Rate as Cash Advances following the promotional period, the
Regular Monthly Periodic Rate and corresponding Annual Percentage Rate applicable
to each Average Daily Balance of Special Advances will be determined as provided above.
For any Promotional Check or Promotional Balance Transfer balances which, in the
Promotional Check or Promotional Balance Transfer offer, we specify will have a Regular
Annual Percentage Rate following the promotional period other than the Regular Annual
Percentage Rate for Balance Transfers or the Regular Annual Percentage Rate for Cash
Advances, the Regular Monthly Periodic Rate and corresponding Annual Percentage Rate
applicable to any Average Daily Balance of Special Advances will be determined as described
in the Promotional Check or Promotional Balance Transfer offer.)
Employee Preferential Rates: If your Summary of Terms and/or Card Carrier disclose
information regarding Loss of Employee Preferential APRs, this means that your Regular
Monthly Periodic Rates and corresponding APRs are preferential rates extended to you
because you are an employee, officer or director of Synovus Bank or one of its affiliated
companies or of Total System Services, Inc. or one of its affiliated companies. If that

9

10

gives us the daily balance for Purchases. Then we add all these daily balances for the Billing
Cycle together and divide the total by the number of days in the Billing Cycle. This gives us
the Average Daily Balance of Purchases.
Average Daily Balance of Balance Transfers (including new Balance
Transfers): To calculate the Average Daily Balance of Balance transfers, we take the
beginning Balance Transfer balance of your Account each day, including unpaid Interest
Charges on Balance Transfers, add any new Balance Transfers as of the date of transaction,
and subtract the applicable portion of any payments and credits on your Account as of the
date of transaction. This gives us the daily balance for Balance Transfers. Then we add all
these daily balances for the Billing Cycle together and divide the total by the number of days
in the Billing Cycle. This gives us the Average Daily Balance of Balance Transfers.
Average Daily Balance of Special Advances (including new Special
Advances): If you use a Promotional Check or Promotional Balance Transfer we offer
you then while the special reduced Monthly Periodic Rate is in effect it will be applied to an
Average Daily Balance of Special Advances (including new Special Advances), computed
for your Promotional Check or Promotional Balance Transfer balances in the same
manner as the Average Daily Balance of Cash Advances (described above); provided that
the Cash Advance Transaction Fee for Promotional Check or Promotional Balance Transfer
transactions is included in your Average Daily Balance of Cash Advances rather than in your
Average Daily Balance of Special Advances. When the special reduced Monthly Periodic
Rate is no longer in effect, we will continue to include such balances, including any unpaid
Interest Charges thereon, in an Average Daily Balance of Special Advances, computed in the
same manner specified above.
Average Daily Balance of Overdraft Advances (including new Overdraft
Advances): Overdraft Protection transactions will be included from the transaction date to
your Account, in an Average Daily Balance of Overdraft Advances (including new Overdraft
Advances), computed in the same manner as the Average Daily Balance of Cash Advances
(described above) provided that the Cash Advance Transaction Fee for Overdraft Protection
transactions is included in the Average Daily Balance of Cash Advances rather than in the
Average Daily Balance of Overdraft Advances. We will apply to your Average Daily Balance
of Overdraft Advances the same Introductory or Regular Monthly Periodic Rate as we apply
to your Balance Transfers.

